                  UNCLASSIFIED

     United States Department of State
   and the Broadcasting Board of Governors
        Office of Inspector General




       Report of Inspection


    U.S. Section of the
International Boundary and
    Water Commission
 Report Number ISP-I-05-26, March 2005




                  UNCLASSIFIED
 UNCLASSIFIED




UNCLASSIFIED
                                       UNCLASSIFIED




                             KEY JUDGMENTS

•   The U.S. Section of the International Boundary and Water Commission
    (USIBWC) deserves credit for helping to initiate resolution of major policy
    issues, including the Mexican Rio Grande water debt and improved sanitation
    in the San Diego region. On the other hand, management actions have
    undermined the morale of the agency, led to an alarming departure of key
    personnel, and raised fundamental questions about the lack of U.S. govern-
    ment oversight of the USIBWC.
•   Internal management problems have engulfed USIBWC, threatening its
    essential responsibilities for flood control and water management in the
    American Southwest.
•   The Department of State (Department) bears clear foreign policy oversight of
    USIBWC. The time has come, however, for stricter Department or other U.S.
    government oversight of how the commission manages matters related to its
    personnel. The situation worsened dramatically under the present Commis-
    sioner, prompting the Office of Inspector General (OIG) to make a signifi-
    cant recommendation that the U.S. Section’s personnel structure and policies
    be aligned more closely with those of the Department.
•   USIBWC also requires continuity in professional management of resources to
    support operations. Such management has been inconsistent for several
    years, and, at present, the USIBWC has no senior management officer.
    Disarray is the consequence.
•   The Department needs to be far more insistent that USIBWC keep it
    informed of its dealings with Mexico in both a timely and candid fashion.
•   The inspection report addresses a wide variety of administrative, security, and
    safety concerns. The Commissioner has expressed his determination to
    address those issues, and a failure to do so appropriately will further under-
    mine an already weak USIBWC.
    The inspection took place in Washington, DC, between January 10 and 29,
2005, and in El Paso, Texas, and USIBWC field offices and facilities in Arizona,
California, New Mexico, and Texas, between January 31 and March 3, 2005.
Ambassador Fernando Rondon (team leader), Siobhan Hulihan (deputy team
leader), Emmitt Candler, Jacqueline James, and Robert Steven conducted the
inspection.

OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   3 .

                                       UNCLASSIFIED
                        UNCLASSIFIED




4 .   OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                        UNCLASSIFIED
                                       UNCLASSIFIED




                                        CONTEXT

    The International Boundary and Water Commission (IBWC) was established
under the provisions of a treaty between the United States and Mexico and related
protocol, both from The 1944 Treaty.1 This treaty was the direct descendent of the
Convention of 1889,2 which established an International Boundary Commission for
the two countries. The 1944 Treaty added water responsibilities, in response to the
growth of population and activity along the border and the need for improved
binational water supply and flood control management.

   The United States and Canada also maintain an International Joint Commission,
which has quite different functions and organization. It has few of the direct
operating responsibilities of the IBWC.

     Under the 1944 Treaty, an Engineer Commissioner, who is supported by two
principal engineers, a legal adviser, and a foreign affairs secretary, heads each
section. Other staffing and organization has been left to the discretion of each
side. The U.S. Section (USIBWC) is headquartered in El Paso, Texas. The Mexican
Section is located directly across the border, in Ciudad Juarez. Both sections have
field offices and facilities, including high dams, hydroelectric power plants, and
flood control works, stretching along the border from the Gulf of Mexico to the
Pacific. USIBWC operates wastewater treatment plants and a potable water
treatment plant, and oversees the operation of a Mexican wastewater treatment
plant. The U.S. and Mexican sections work under the foreign policy oversight of
the Department and the Mexican Secretariat of Foreign Relations, respectively.
The USIBWC operates with a FY 2005 budget of $33.6 million for salaries and
expenses and $9 million for construction. It has 243 employees.

     The agency has an unusual relationship with the Department. While its budget
is included within the Department’s budget request to Congress, issues of over-
sight, and who might exercise that oversight in areas apart from foreign policy, have
1
 Treaty relating to the utilization of waters of the Colorado and Tijuana Rivers and of the Rio Grande,
signed February 3, 1944, and supplementary protocol, signed November 14, 1994, 59 Stat. 1219, TS 994, 9
Bevans 1166, 3 UNTS 313.

2
 United States-Mexico Convention to Avoid the Difficulties Occasioned by Reason of the Changes
Which take Place in the Beds of the Rio Grande and Colorado River[s], signed March 1, 1889, TS 232, 26
Stat. 1512. See also United States-Mexico Convention Touching the Boundary Line Where It Follows the
Bed of the Rio Grande and the Rio Colorado signed November 12, 1884, TS 226, 24 Stat. 1011.

OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005              5 .

                                       UNCLASSIFIED
                                  UNCLASSIFIED



      never been adequately defined. Over the years, USIBWC has been largely indepen-
      dent in terms of internal management and operations.

           In addition to foreign policy oversight and budget processing, the commission
      comes under the responsibility of the Department’s OIG. Although USIBWC was
      last inspected in 1977, OIG has conducted financial audits regularly, and Public
      Law 106-457 (Nov. 7, 2000) requires OIG to monitor implementation of a pending
      fee for services contract for the construction of a secondary wastewater treatment
      plant in Tijuana, Mexico.

          In contrast to internal management, issues such as water and sanitation can
      reach the highest levels of the U.S. and Mexican governments. Such issues involve
      questions with very immediate domestic consequences in the border region where
      burgeoning population growth, industrialization, and cross-border issues such as
      sewage disposal have greatly increased the interest and demands of state and local
      governments, other federal agencies, and the courts. Water management, and the
      environmental consequences, will remain key policy issues for the foreseeable
      future, not to mention border security and immigration issues that are not subjects
      of this report.




6 .             OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                  UNCLASSIFIED
                                       UNCLASSIFIED




                     EXECUTIVE DIRECTION



MANAGEMENT PROBLEMS
    USIBWC has a long history of quiet, acknowledged technical competence. For
over 100 years, the American and Mexican Commissioners of the IBWC - civil
engineers - found appropriate solutions to most of the water and sanitation issues
affecting both sides of the border. In other words, the commission worked as the
treaties intended. More recently, USIBWC has gone through several years of
internal management turmoil. It is only fair to acknowledge the situation faced by
the new American Commissioner when he took office in January 2004.

    The incumbent Commissioner is a chemical engineer, a break from the long
practice of assigning civil engineers to oversee the commission. The new Commis-
sioner has not served in any comparable management role, but brings a good
knowledge of the Southwest to the position, with roots in both the United States
and Mexico. He brings several years of environmental management experience
with the U.S. Environmental Protection Agency in Texas and was manager of the
Lower Valley Water District in El Paso. With a background of political and public
affairs activism, he is clearly an individual who enjoys outreach activities. Such
outreach was needed at a Commission whose reputation in Congress was suffering,
largely as a result of perceived inaction on San Diego County’s water sanitation
problems and Texas’ unhappiness over the sharing of Rio Grande waters.

    The Commissioner wasted no time in initiating a series of actions, some
contributing to major policy successes, but some seriously undermining the agency
he was chosen to lead. If anything, the internal management turmoil inherited by
the Commissioner worsened dramatically under his leadership.

     Soon after assuming office, the Commissioner dismissed or encouraged the
retirement of several key commission executives, including a principal engineer, the
legal adviser, and the foreign affairs secretary. He retained one principal engineer
but essentially concentrated decision making in his own hands, while replacing
departed employees with his own selections. He eliminated virtually an entire layer
of middle management, including the senior officer responsible for overall
administration.

OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   7 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



          As of early 2005, USIBWC’s front office included the five positions stipulated
      by the 1944 Treaty: a new engineer-commissioner, two (one new) principal engi-
      neers, a new foreign affairs secretary, and a new legal adviser. The Commissioner
      designated one of his counsels to serve as a deputy, contrary to the past practice of
      having the senior principal engineer serve as deputy commissioner. An administra-
      tive assistant, two public affairs specialists, another counsel, and a contractor-
      adviser completed the front office. While the Commissioner replaced departed
      executive suite personnel with some qualified choices of his own, he also rewarded
      long-time friends with ranking positions and corresponding salaries. One friend
      was hired under a consultant appointment, without convincing justification, and at
      a salary higher than that of USIBWC’s senior engineer.



      POLICY SUCCESSES
           As this report is written, the United States and Mexico are on the verge of
      settling a long-standing, sometimes acrimonious dispute over Mexico’s treaty
      obligation to provide Rio Grande water to the United States, as the United States
      has provided Colorado River waters to Mexico. Current rainfall has swollen the Rio
      Grande after years of drought, making it far easier for Mexico to settle its water
      debt, but bilateral diplomacy between the two countries has been a strong
      contributory factor. The IBWC provided a venue for the two countries to come
      together, and both the American and Mexican Commissioners reached a long
      sought after resolution, under the watchful eye of Texas and other stakeholders,
      with attentive oversight by the Department and the Mexican Secretariat of Foreign
      Relations.

          The U.S. Commissioner also deserves credit for helping break a logjam affecting
      sewage treatment on the California border with Mexico. The State of California
      had filed an action against the USIBWC alleging federal and state water quality law
      violations in connection with discharges of Tijuana sewage treated at the
      USIBWC’s South Bay International Wastewater Treatment Plant only to the
      advanced primary level, and Congress had passed related legislation. While
      Congress passed a law in 2000 addressing wastewater treatment of sewage
      originating from the Tijuana region and requesting that USIBWC negotiate a new
      treaty minute or amendment to a prior treaty minute with Mexico, USIBWC had not
      yet finalized such a new treaty minute or amendment when the U.S. Commissioner
      took office. Legislation passed by Congress in 2004 to amend the 2000 law,
      California’s court case, and the Commissioner’s energy, got the Tijuana Sanitation
      Project moving.


8 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED



    The Commissioner has been focusing on other difficult border issues, including
wastewater in Nogales, Arizona, the pollution of the New River in California, and
trying to jumpstart a proposal for more cooperative environmental planning along
the border. The Commissioner has made countless trips to Washington, visiting
Capitol Hill offices as well as U.S. government agencies, announcing his readiness
to undertake needed projects along the border.



MANAGEMENT MISSTEPS
     While the politically minded Commissioner quickly sensed the priorities of his
Congressional and state stakeholders, and merits recognition for his outreach
efforts, he displayed little apparent interest in the realities of his own agency.
Beyond policy priorities, his focus appeared to be somewhat unrealistic as he
proposed a five-person office in Washington, and sometimes petty as he tinkered
with the employee ratings system. He did not visit most of the U.S. Section’s field
offices,3 where his employees oversaw very important water management and
sanitation facilities. He ordered a series of controls on hiring, purchasing, hours of
employment, travel, training, and employee ratings that stripped headquarters and
field managers of responsibility and initiative, hampered the operations of the field
offices, and demeaned all employees. Serious operational and personnel
consequences were the result and are discussed further in this report.

    Morale plummeted at USIBWC where a climate of fear and disaffection spread.
The wave of personnel changes prompted a letter writing campaign by former and
present employees, begging for outside oversight of the Commissioner’s action.
This inspection is one result. The very stakeholders the Commissioner first culti-
vated have begun to realize that the Commissioner has provoked a hemorrhage of
qualified personnel, personnel who protect against floods, monitor the safety of
water, and assure backup electrical power for Texas. In private conversations with
OIG, stakeholders begged that experienced personnel be retained. In Washington,
senior federal agency officials expressed doubts to OIG about the Commissioner’s
management skills.

   Communication within USIBWC is very poor. The Commissioner does not
usually document his instructions or wishes in writing, leading to considerable
confusion over what he wants. He told OIG that subordinate managers misinter-

There are field offices at American Dam (El Paso, TX), Amistad Dam (Del Rio, TX), Falcon Dam (TX),
3

Las Cruces (NM), Mercedes (TX), Nogales (AZ), Presidio (TX), San Diego (CA), Yuma (AZ), and Fort
Hancock (TX).


OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005         9 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       preted his instructions on the preparation of employee evaluations, yet changes in
       something as basic as employee evaluations should have been preceded by the
       widest consultation. The Commissioner does not favor staff meetings and prefers
       to closet himself in his office with his “inner circle.” Unsurprisingly, a “we versus
       them” atmosphere pervades the El Paso office.

           The U.S. government’s “A-76 process,” encouraging as much private sourcing of
       work as possible, adds considerably to job insecurity at USIBWC. The effect is
       particularly noticeable at the field offices, where employees fear the Commissioner
       wants to shut down many offices. The Commissioner informed OIG that he would
       do everything possible to compensate any affected employees, but the
       Commissioner’s record on previous separations or transfers is well known within
       USIBWC and is not reassuring. The Commissioner and his senior staff need to visit
       the field offices and meet with rank and file employees, as well as host periodic
       sessions with all the project managers. Communication must be improved. The
       Commissioner told OIG that he had every intention of “healing” his organization
       and so promised at a general staff meeting at the end of the inspection.



       ETHICS
           The Commissioner instituted strict financial management controls affecting
       employee expenditures, overtime, attendance at work, and procurement. However,
       he did not apply the same strictness to his own use of U.S. government funds. For
       example, he spent most of USIBWC’s representational allotment on his swearing-in
       ceremony. While the purpose of introducing himself to key USIBWC contacts
       appeared justifiable, the nature of an event costing $4,896 was questionable. U.S.
       government funds should not have been used to host a gathering of mostly Ameri-
       can citizens, however distinguished they might have been. OIG was troubled also
       by the Commissioner’s apparent involvement in the awarding of contracts, his
       selection of several friends for lucrative positions at USIBWC, and his frequent use
       of hotels that exceeded approved per diem rates. Recommendations on these
       issues are contained in the Financial Management section.



       OVERSIGHT REQUIRED
           USIBWC considers itself an independent federal government agency whose
       leader is answerable only to the President. While the Commission historically
       operated independently in administrative matters, classifying positions and setting

10 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



salaries without oversight, it did follow generally accepted government-wide
personnel practices. The Commissioner’s self-selected salary grade is now at the
Executive Level II, equivalent to that of a Cabinet deputy secretary or armed
forces secretary. He feels he can fire and hire, set salaries including his own, and
generally run his agency without reference to other authority. The Commissioner
does acknowledge the foreign policy oversight authority of the Department of
State and accepts the jurisdiction of OIG. The Commissioner has also complied
with the provisions of the federal Managers Financial Integrity Act (as discussed
further under the Management Controls section of this report).4

      While foreign policy, financial, and OIG oversight appear to be in place, there is
little human resources oversight or support from outside. This is in contrast to
USIBWC’s Mexican counterpart, often described as a mirror image across the
border, which has placed the Mexican Section within the Secretariat for Foreign
Affairs.

     USIBWC lacks continuity and expertise in its senior management. There have
been five commissioners, permanent or acting, in the past five years, contrasting
dramatically with the stability of the past. Throughout most of this latter period a
core of long-time “career” employees helped to stabilize the organization and carry
on its work. The current Commissioner, in his year in office, eliminated much of
that core strength, leaving a weakened management structure. This has under-
mined his own ability to manage his organization.5 Although a commissioner must
be able to name a few trusted aides to assist him/her in the discharge of duties, the
ability to hire or fire (discussed further under Human Resources Management)
requires oversight. The Commissioner has failed to adhere to core Civil Service
merit system principles. (See 5 USC § 2301.) Key personnel, such as a formally
designated deputy commissioner with engineering qualifications and experience, an
overall executive officer with proven organizational management skills, and a
secretary/foreign affairs officer with diplomatic expertise and experience, would
provide the Commissioner with invaluable support and allow him to concentrate
his efforts at the appropriate policy level. The organization lacks recourse to an
oversight body with the resources and credibility to assure the continuity and good
management of the agency.



4
 In a 1998 U.S. General Accounting Office report (GAO/NSIAD-98-238) it was stated that “...greater
oversight of the U.S. Section’s financial and program operations is needed.”

5
 USIBWC’s veteran Director of Human Resources submitted his resignation from the organization on
March 18, 2005.


OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005         11 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



           Because all USIBWC actions can have large or small foreign policy
       consequences, the Department of State clearly has a stake in the performance of
       USIBWC. Throughout its long history as a specialized, primarily technical, semi-
       independent agency, oversight in areas other than foreign policy and finance has
       been of little concern.

           USIBWC has been something of an orphan agency, left to its own resources
       except for guidance on foreign policy issues and some limited financial oversight. It
       has experienced, professional human resources specialists, but they have not had
       the freedom to administer procedures in keeping with normal federal practice. The
       result has been confusion, some abuse, and certainly a severe morale impact. The
       personnel of USIBWC are in limbo, with questions on all sides as to their status
       and rights, if any.

           Effective oversight of the personnel function in USIBWC is overdue, and
       should be established. OIG and others have considered a range of possibilities for
       solving this problem. Two of these emerge as most likely to succeed in providing
       such oversight. One involves the Department asserting control of USIBWC
       personnel decisions. The other involves staffing of the senior positions in the
       agency by the Department.


           If the Department were to take charge of the full range of normal personnel
       procedures for USIBWC, protections could be extended and USIBWC would enjoy
       the benefits of the Department’s human resources management capabilities. Over-
       sight of financial operations would be facilitated. The Department itself would be
       encouraged, if not forced, to provide greater support to the organization, support
       that USIBWC now lacks.

           Given the complex statutory authorities relied on by the USIBWC to carry out
       its work, it is possible that legislation would be required to permit the Department
       to take on personnel administration for the U.S. Section. Legal steps needed to
       transfer personnel authority, and to protect the interests of USIBWC employees,
       should be reviewed by lawyers at relevant agencies, including the Department of
       State, Department of Justice, Office of Special Counsel, Office of Personnel
       Management (OPM), and Office of Government Ethics.

           An alternative to this plan is integration of the senior staff of the organization.
       The Commissioner would remain an appointee of the administration, just as is an
       ambassador. This proposal would encompass the five treaty positions of commis-
       sioner, secretary/foreign affairs officer, counsel, and two principal engineers. To



12 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



this group should be added a chief management officer (see Recommendation 13).
These persons, appointed by the Department, could be found in the Department’s
ranks, in other government agencies, in the private sector, or in the USIBWC itself,
but they would become regular Department employees upon appointment.

     In realistic terms, it might be expected that the persons in this integrated group
of executives would remain with USIBWC for extended periods, as have such
employees over its history. The remainder of the USIBWC staff would remain in
its present excepted personnel system, but under the immediate administration of
Department employees themselves subject to oversight by the Department.

    OIG encourages consideration of any solution that guarantees effective over-
sight of the personnel functions of USIBWC. It is critical that such oversight be
established promptly, before there is further degradation of USIBWC’s capabilities.


   Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordi-
   nation with the Bureau of Human Resources and the Office of the Legal Ad-
   viser, should develop and implement a plan to ensure effective oversight of
   the personnel structure of the U.S. Section of the International Boundary and
   Water Commission and its adherence to applicable laws and regulations gov-
   erning personnel administration. (Action: WHA, in coordination with DGHR
   and L)


    Appointment by the President of the U.S. Commissioner does not require the
advice and consent of the Senate. Thus it is possible, and was in the case of the
current Commissioner, for the incumbent to assume his position with very little
preparation or briefings by the Department or the USIBWC, and with none of the
vetting inherent in the advice and consent process. He arrived on the job without a
security clearance, although USIBWC affects the foreign policy of the United
States (and Mexico) and it must cooperate with Department of Homeland Security
(DHS) agencies in the protection of the border. (Security clearances are recom-
mended separately.) The Commissioner had to do a lot of on-the-job training.
Were the position of Commissioner subject to the advice and consent of the
Senate, a possibility that the Senate contemplated,6 the status, preparation, and
accountability of the Commissioner would be enhanced.

6
 “Nothing contained in the treaty or protocol shall be construed as impairing the power of the Congress
of the United States to define the terms of office of members of the United States Section on the Inter-
national Boundary and Water Commission or to provide for their appointment by the President by and
with the advice and consent of the Senate or otherwise.” Senate ratification, Paragraph (b) understand-
ings attached to Senate Resolution of April 18, 1945.


OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005               13 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED




          Recommendation 2: The Bureau of Western Hemisphere Affairs, in coordi-
          nation with the Bureau of Legislative Affairs, should request that the position
          of Commissioner, U.S. Section of the International Boundary and Water
          Commission, be made subject to the advice and consent of the Senate.
          (Action: WHA, in coordination with H)




       BUREAU PERFORMANCE PLAN
           OIG’s 1977 inspection called for inclusion of the border region in Embassy
       Mexico City’s planning documents. As of 2004, USIBWC was neither mentioned in
       Embassy Mexico City’s Mission Performance Plan nor in WHA’s Bureau Perfor-
       mance Plan. Nobody would question the importance of the border region to the
       security and well being of the United States and Mexico, but it would appear that
       USIBWC plays no role. This is clearly not the case. WHA’s Bureau Performance
       Plan already incorporates homeland security and immigration concerns, and should
       also acknowledge the role of the USIBWC. It is no longer a small agency operating
       independently and out of sight in El Paso, but is of growing importance to the
       region and to U.S. - Mexican relations.


          Recommendation 3: The Bureau of Western Hemisphere Affairs should
          incorporate the role of the U.S. Section of the International Boundary and
          Water Commission into the Bureau Performance Plan. (Action: WHA)




       FOREIGN AFFAIRS OVERSIGHT
           Oversight by the Department of USIBWC’s relations with Mexico is based in
       the 1944 Treaty. The commission has at times sought a more independent role
       than envisioned by the Department, but the bilateral relationship appears to have
       been effective. It still is, but requires definition.

           One of the prescribed treaty positions of the commission is a secretary, who
       also bears the title “foreign affairs officer.” At one time, this position was held by a
       Foreign Service officer detailed from the Department. Reportedly, the assignment
       was not considered career-enhancing, and the practice lapsed. For many years the
       position has been held by regular USIBWC employees. The incumbent supports the


14 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



Commissioner in his contacts with Mexican authorities, and documents such
contacts for the U.S. Section and the Department. A long-serving secretary who
retired in 2003 established an excellent reputation for competence in his field and
set the standard for effective relations with the Department.

     With the departure of this officer, an engineer from within USIBWC was
appointed to the position. The new Commissioner, who assumed his duties in
January 2004, soon transferred the incumbent to an engineering position in the
field. A new secretary was appointed from outside the agency in July 2004. This
officer had an extensive background in border affairs and interest in foreign affairs
in general. He had no actual experience with IBWC and no experience with the
Department. In addition to learning his new job, his duties were expanded in late
2004 to include responsibility for three major administrative divisions in USIBWC.
No individual can do justice to the secretarial and foreign affairs duties under these
circumstances. The position needs full-time attention. OIG considered, and
rejected, reestablishment of the secretarial position for a Foreign Service officer
detail, but believes that establishment of qualifications and performance standards
for this position, in consultation with the Department, is appropriate.

     It would be to the benefit of the Department, USIBWC, and the current incum-
bent of the position of secretary/foreign affairs officer to familiarize the officer
with the operations of the Department and the conduct of foreign relations in
general. This might be accomplished in part by enrolling the officer in the
Department’s basic Foreign Service officer training course - the A-100 course, or in
another appropriate course on the Department and diplomatic practice. While
attending such training, the officer could be exposed more fully to the operations of
WHA/MEX and the USIBWC liaison function. This presumes the granting of a
national security clearance, as discussed below. In the process of establishing
familiarity with Department operations, the incumbent could facilitate the
clarification of roles and communication in the relationship between the
Department and USIBWC.


   Recommendation 4: The U.S. Section of the International Boundary and
   Water Commission, in coordination with the Bureau of Western Hemisphere
   Affairs, should define qualification and performance standards for appoint-
   ments to the position of secretary/foreign affairs officer in the commission.
   (Action: USIBWC, in coordination with WHA)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   15 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



           Recommendation 5: The Bureau of Western Hemisphere Affairs, in coordi-
       nation with the Foreign Service Institute and the U.S. Section of the International
       Boundary and Water Commission, should arrange for the secretary/foreign affairs
       officer of the U.S. Section of the International Boundary and Water Commission to
       attend a basic Foreign Service officer training course or other appropriate course
       that would provide familiarization with the Department and with diplomatic
       practice. (Action: WHA, in coordination with FSI and USIBWC)

           Until 2004, the office included a language specialist who acted as interpreter in
       meetings with Mexican interlocutors, and as translator of documents between
       English and Spanish. This position was effectively eliminated when the language
       specialist was directed to transfer to the Mercedes, Texas field office, ostensibly as
       part of an effort to strengthen regional offices. He declined to accept the transfer
       and left USIBWC. No such position was established in the Mercedes office, and
       the usefulness of such a position in the field is unclear.

           Interpretation at formal IBWC meetings is now provided by contractors, and
       translations are sent out to contractors or accomplished informally by bilingual
       employees. The elimination, or transfer, of this position was recommended in a
       USIBWC contract study submitted in December 2004. It held that the duties of
       the position could be taken up by the foreign affairs assistant. However, this
       employee, who is willing, does not have the professional qualifications of a confer-
       ence interpreter or trained translator and is not performing in those capacities.
       There are significant delays in translation of documents.

           Many USIBWC employees speak Spanish, with varying degrees of fluency.
       This encourages the belief that official business can be conducted in Spanish by
       persons not trained in formal interpretation and translation. Employees who do
       not speak fluent Spanish are handicapped in meetings, and even Spanish-speaking
       employees may not have the command of technical vocabulary needed. Official
       discussions with Mexican authorities, preparation of formal minutes, and transla-
       tion of official documents, should be supported by a professional language
       specialist who is a USIBWC employee.

           As the inspection ended, USIBWC declared its intention to reestablish the
       foreign affairs assistant position, which is to include formal interpretation and
       translation qualifications. When this process has been completed, OIG will close
       the following recommendation.




16 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED




   Recommendation 6: The U.S. Section of the International Boundary and
   Water Commission should reestablish the position of language specialist in
   the foreign affairs office. (Action: USIBWC)


    The tone of communication between the U.S. and Mexican Sections on some
occasions has become less courteous, even somewhat confrontational, under the
new Commissioner. This in part reflects his view that a firmer U.S. stance is needed
in the relationship but may also reflect a lack of full appreciation of diplomatic
practice. The influence of an experienced language specialist, and training in the
Department for the secretary/foreign affairs officer, should improve the tone, if not
the substance, of exchanges with the Mexican government.

    The Department has not been receiving the volume and quality of information
from USIBWC it needs to exercise its responsibility for oversight. Conversely, the
Department has not provided USIBWC guidance on its needs and wishes in this
regard. Communication between the Department and USIBWC must be improved
to properly coordinate foreign policy affairs.

     USIBWC is under the foreign policy guidance of the Department. To facilitate
this, USIBWC maintains a liaison officer in WHA/MEX. A Senior Foreign Service
officer heads a small staff as Coordinator, U.S.-Mexico Border Affairs, within
WHA/MEX. An estimated one-third of the border affairs section’s time is devoted
specifically to IBWC concerns. The coordination and relationship between the
USIBWC liaison office and WHA/MEX appears effective and cordial, but it is
essential for the performance of the oversight role that the Department be regularly
and fully informed of communications with the Mexican section and any other
Mexican entities. This ensures that the Department can relate IBWC initiatives and
activities to overall relations with Mexico and that USIBWC can benefit from the
Department’s broader knowledge and experience in foreign affairs as they involve
Mexico.

    Decisions reached by the two IBWC sections are required by the 1944 Treaty to
be recorded in formal treaty minutes, which are then submitted to the respective
foreign ministries for approval or for further negotiation at the ministry level. To
enable the Department to understand and follow the commission’s work, it had
long been the practice to routinely send copies of all documentary exchanges
between the sections to the Department through the USIBWC liaison office in
WHA/MEX. Past secretaries supplemented these copies with memoranda inform-
ing and alerting the Department to developments. This system is not being used.
Documents are not sent to Washington, and there are no accompanying memos.


OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   17 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



           In addition, there are other meetings between the IBWC’s sections that deal
       with matters of significance to the Department. While copies of routine letters are
       supplied to the Department, other documents of interest are released to the De-
       partment only with individual approval by management, including communications
       from the Mexican section. Informal USIBWC minutes of meetings with the Mexi-
       can section, dated in early December 2004 and early January 2005, had not been
       shared with the Department in late February. These have been held by USIBWC
       pending full agreement with the Mexican section. All significant information
       should be shared with the Department without waiting for completion of the full
       process.


          Recommendation 7: The Bureau of Western Hemisphere Affairs, in coordi-
          nation with the U.S. Section of the International Boundary and Water
          Commission, should develop standard operating procedures governing the
          sharing of foreign affairs material, including communications from the
          Mexican Section and records of meetings and consultations with the Mexican
          Section. (WHA, in coordination with USIBWC)


           The liaison officer maintained in WHA/MEX by USIBWC is its only full-time
       link with the Department and a very valuable resource. If and when the incumbent
       is away for any reason, such as leave, USIBWC is severely handicapped in its ability
       to inform the Department of developments and to receive timely guidance on
       foreign affairs. The liaison officer has a national security clearance, essential to
       work effectively in WHA/MEX. Because there is no other USIBWC employee
       with such clearance, it is impossible to second a temporary replacement or even to
       allow the Commissioner to consult freely in the Department and view classified
       documents concerning relations with Mexico.

           The Commissioner will increasingly have to work with DHS agencies in the
       new security environment, and he and his secretary/foreign affairs officer should
       have access to classified material relevant to their duties. This access need not
       include retention of classified material in USIBWC facilities; it can be limited to
       the viewing of material in the Department or in federal facilities at other meeting
       sites.




18 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED




   Recommendation 8: The Bureau of Western Hemisphere Affairs, in coordi-
   nation with the Bureau of Human Resources, should designate the positions
   of Commissioner and secretary/foreign affairs officer in the U.S. Section of
   the International Boundary and Water Commission as requiring SECRET
   national security clearances, and arrange such clearances for the current
   incumbents. (Action: WHA, in coordination with DGHR)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   19 .

                                       UNCLASSIFIED
                         UNCLASSIFIED




20 .   OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                         UNCLASSIFIED
                                       UNCLASSIFIED




                     POLICY AND PROGRAM
                       IMPLEMENTATION


    The advent of new management in USIBWC in early 2004 brought changes in
organization and staffing which, regardless of intent or justification, have resulted
in confusion and depressed morale. This situation is discussed elsewhere in this
report; its effects on field operations are discussed in more detail below.

    USIBWC has operations and engineering departments headed by the two
principal engineers. As currently structured, the operations department includes a
general operations and maintenance division, a water accounting division, which
tracks and administers the distribution of water between the United States and
Mexico, an occupational health and safety division, a boundary and realty division,
and the field project offices. The engineering department has consolidated into an
engineering services section which supports planning and construction of new
projects as well as the continuing needs of the existing structure, and a compliance
section (formerly environmental management division), which monitors environ-
mental protection issues.

    Within the last year, most of these units have lost their leaders through dis-
missal, retirement, resignation, or forced transfer, and with that, a great store of
IBWC experience. The operations and maintenance section lost its supervisory
general engineer; the boundary and realty section lost its realty officer, leaving one
specialist; health and safety lost its sole officer to military service for some two
years. The senior supervisor of the two large dam/reservoirs took early retirement.
The senior environmental engineer was transferred to a field office as part of a
restructuring exercise aimed at creating strengthened regional offices. (This effort
appears to be stalled, and few if any benefits resulting from the transfer are evi-
dent.) The engineering department lost the heads of both of its major divisions, as
well as the heads of two subordinate sections now absorbed into the major offices.

    The USIBWC described the elimination of the middle-management layer:
“Unnecessary layers of bureaucracy/supervision are eliminated...” Decentraliza-
tion of headquarters functions and concentration of expertise and resources at the
local level were cited as improvements. The concept of decentralization may be
valid, but it has not yet been tried. In the meantime, the removal of so many key


OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   21 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



       supervisory personnel has left employees confused over lines of supervision and
       with reduced access to management decision levels. In most cases, the personnel
       moved into responsibilities as acting heads of sections have not been given the
       promotions and pay commensurate with the jobs. For example, the project
       managers at the major Amistad and Falcon dam sites have not been given the rank
       and pay of their predecessors. The rationale for this is not clear, and the negative
       affect on morale is evident.

           The overall staffing of USIBWC has been permitted to dwindle for many years.
       The situation is currently worsened by the Commissioner’s decision to allow most
       open positions to remain vacant indefinitely. OIG’s brief visit confirmed the view
       of many of USIBWC’s managers, and of some informed outsiders, that staffing and
       other resources have fallen to unacceptably low levels. It should not be necessary
       for OIG to call attention to the major deficiencies, as the new Commissioner
       himself contracted for a study of the situation in late 2004. OIG noted the major
       conclusions of the study,7 as paraphrased below:
           •   Retirements from the aging workforce in the near future will “erode” the
               ability to keep up with operations and maintenance.
           •   Outsourcing to contractors may eventually yield some savings, but
               reduction in the core USIBWC staffing would jeopardize critical
               functions.
           •   Staffing levels already are at or below minimum levels needed to keep
               facilities in operating condition. Infrastructure rehabilitation and major
               repair projects are being deferred.
           •   Levee and flood management projects are hampered by permit and
               environmental restrictions on channel maintenance, increasing the like-
               lihood of levee failure in event of major flooding.
           •   IBWC wastewater treatment plants face many legal, political, and
               technical problems, which will become more acute as they spread to more
               border areas.
           There is little indication that USIBWC was moving to address these concerns
       before the inspection. The Commissioner has indicated his intention to address
       these concerns promptly, and states that he has initiated actions to hire new person-
       nel in key positions.



       Field Office Assessments, November 12, 2004, William G. Fraser.
       7




22 .               OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED



     The Commissioner has removed from his managers much of their authority and
ability to do their jobs. In what can only be described as severe micro-management,
crippling limits have been placed upon purchase authority, use of official credit
cards, approval of travel and training, and filling personnel vacancies, among other
things. OIG found records of mechanics siphoning fuel from one piece of equip-
ment to another to keep work going and trucking fuel from one project site to
another because supplies had run far below normal levels. Field communications, a
vital consideration in the border environment, depend partly upon official USIBWC
cell phones for supervisors and work crews. The Commissioner apparently arbi-
trarily cut their numbers in half, leaving crews scrambling to parcel out the
remaining devices according to short-term needs.

    Training needs are discussed elsewhere in this report, but it is evident that all
but legally mandated training or training paid for by other organizations has been
suspended, whatever its obvious value to employees and the organization. Official
travel is similarly restricted, although some loosening of restrictions is reported
since the beginning of the inspection.

    More serious is the effect upon the basic operations of USIBWC. The
inspection did not and could not survey levees, measure water depths, or follow up
each allegation of neglect. There is disturbing evidence, discussed above, that
maintenance of infrastructure is falling behind. Silting behind American Dam at El
Paso should have been cleared by now, in anticipation of the coming flood season.
Farmers in the Las Cruces area have expressed concern over the current state of
levee maintenance. Managers in some project areas state that they are keeping up
with minimum flood control infrastructure maintenance but are not confident that
they have the resources to cope with storm or excessive flood conditions.

    The limitations on hiring, travel, training, and other staff practices, and central-
ized control of the most minor expenditures, are reducing the effectiveness of the
organization. These measures were announced or implied to be temporary, while
the new management assessed the organization. That temporary assessment has
gone on for a year, and there is little evidence that any relief is contemplated.

      There appear to be two factors that explain this situation. The Commissioner
has embraced the concept of competitive outsourcing of governmental functions,
under the provisions of Office of Management and Budget Circular A-76. A
preliminary study of USIBWC by a contractor was concluded in December 2004.
It recommended decreases in staffing, primarily in USIBWC headquarters and
identified areas where commercial outsourcing competition was indicated. OIG



OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   23 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       does not attempt to assess or challenge this study, for the most part. It may well be
       that some USIBWC functions can better be handled by contractors. Supervisors
       and project managers in the organization readily concede the probable value of
       contracting some services.

           However, implementation of this A-76 competition could under the best of
       circumstances take many months to several years to implement. Management has
       done little or nothing to explain the process to the employees, who are left to
       wonder if any of them will have jobs in a year. Whatever the intent of the
       Commissioner, he has left his staff with the impression that their service, and
       welfare, is regarded with contempt and disinterest. As noted elsewhere, many
       employees of this small organization have never met the Commissioner, and gain
       their impressions of his intentions largely through hearsay and rumor.

           Secondly, the conclusion cannot be avoided that the Commissioner simply
       distrusts the majority of his supervisors and project managers. His comments to
       this effect have been reported by too many sources to be ignored or discounted,
       and the perception of this distrust is widely held in the organization. His with-
       drawal of authority from his supervisors to manage elementary aspects of their
       work has had serious effects upon efficiency, to say nothing of morale.

            There is little or no evidence that managerial discretion was being abused
       significantly in the past, or that the current micro-management has resulted in any
       significant improvement in efficiency or in monetary savings. Some decisions must,
       of course, be made at headquarters. Most routine management can and should be
       left to the designated managers.

           The critical issue is that, for whatever reason, the suspension of the ability of
       managers to do their jobs is steadily draining efficiency and morale. The work of
       the commission is not being done in many instances, and its valuable store of
       experienced personnel is being depleted as employees seek jobs elsewhere. By the
       time any A-76 process is completed, the organization may be so damaged as to be
       unable to carry out its mandate. It is time to return normal authority to supervisors
       and project managers and let them get on with the work.


          Recommendation 9: The U.S. Section of the International Boundary and
          Water Commission should restore normal, historic authorities to its
          supervisors and project managers to permit them to carry out their assigned
          missions. (Action: USIBWC)




24 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



    As the inspection ended, the Commissioner stated his intention to “empower
and support” field operations while the A-76 process gets underway. Preliminary
steps were being undertaken to return some authorities to project managers and
other supervisors.



ABSENTEE MANAGEMENT
    A striking feature of the new management of USIBWC is its isolation from its
work force. The Commissioner has never visited most of the projects under his
authority. On the few occasions when he has visited a field site, the visit has been
perfunctory and in connection with other duties in the area. While visits by the
Commissioner have been scheduled repeatedly, they are cancelled as frequently.

     This situation is exacerbated by the severe restrictions imposed upon travel in
the last year. Visits to the field by headquarters supervisors and by specialists used
to be routine and regular. The principal engineer for operations and maintenance
would visit the projects at least two or three times a year. Other headquarters staff
visited as required. Project managers met on a roughly quarterly schedule, rotating
between El Paso headquarters and the major project sites, interacting with head-
quarters staff and with each other. In the past year, most of this interaction has
ceased, as the Commissioner has refused to approve most travel requests except for
those from his own more recent appointments.

      One result of this isolation has been to leave field personnel, in particular, with
little or no information about developments in the organization. The reduction in
human contact has not been compensated by any increase in written information.
That too has diminished. The predictable outcome has been a proliferation of
rumor and misinformed speculation about management and the future of the
organization.


   Recommendation 10: The U.S. Section of the International Boundary and
   Water Commission should institute a program of regular visits by the
   Commissioner and headquarters staff to its field projects and reestablish
   regular project manager meetings with the Commissioner. (Action: USIBWC)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   25 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       SECURITY
          The overall security posture of USIBWC is in need of prompt review.
       Responsibilities are unclear, both within and outside of the commission, and
       should be clarified.

            Security concerns for the IBWC, before the galvanizing terrorist attacks of
       September 11, 2001, were limited largely to prevention of petty theft from its
       equipment yards and the protection of its facilities from incursion by illegal
       migrants and smugglers in transit. The Mexican side has long depended on its
       police and military for security of its border facilities. The picture on the U.S. side
       is remarkably unclear in the heightened security environment of the post
       September 11, 2001, era.

            The IBWC is not a “classified” environment. It holds no U.S. government
       national security documents, and its personnel generally hold no security clear-
       ances. Security concerns focus on physical protection against crime and, poten-
       tially, terrorism aimed at its dams and power plants. The Department’s security
       arm, the Bureau of Diplomatic Security (DS), has neither taken nor been charged
       with responsibility for the security of USIBWC.

           USIBWC itself maintains a handful of security guards, primarily at its dams.
       Their number and adequacy require review. The guards have no arrest powers and
       can do little more in the face of illegal border crossings and smuggling across and
       around IBWC facilities than call the U.S. Border Patrol and/or local police for
       intervention. The project managers praise the cooperation they get from these
       other agencies, but the arrangements are informal and inadequate. A Memorandum
       of Understanding between USIBWC and the U.S. Border Patrol would be in the
       interests of both agencies. It should define the extent of protection to be provided
       by the Patrol and the limit of its responsibilities.


          Recommendation 11: The U.S. Section of the International Boundary and
          Water Commission, in coordination with the Bureau of Western Hemisphere
          Affairs and the Bureau of Diplomatic Security, should seek a Memorandum
          of Understanding with the U.S. Border Patrol defining the security support
          that the border patrol is able and willing to provide to commission field
          facilities. (Action: USIBWC, in coordination with WHA and DS)


          DS informed OIG that security oversight for USIBWC rests with the Federal
       Protective Service (FPS). However, FPS does not appear to have a mandate to


26 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



oversee security for USIBWC as a whole. It does oversee a USIBWC contract with
a private security firm that provides guards at the headquarters and at the nearby
American Dam facility in El Paso. In the event of an incident, a call can be placed
to FPS in El Paso who will respond. Another private security firm services an
alarm system in the headquarters, for which FPS appears to have no responsibility.

    Efforts have been undertaken in USIBWC to draw up proposals for surveys of
security needs for the headquarters building, but these have not been completed,
and it has not been clear whether such surveys should be undertaken by private
firms or by one or another of U.S. government agencies. FPS responsibility for
USIBWC facilities beyond the headquarters is unclear to FPS, USIBWC, and OIG.
DHS has involved itself with IBWC only as described below.

    In 2003 a major effort was undertaken under DHS to survey security needs
along the border in conjunction with Mexican authorities. The group headed by the
USIBWC developed a Critical Infrastructure Protection Plan to survey security of
the dams, power plants, and levees, and estimate costs for recommended improve-
ments. The USIBWC role in producing the plan has been praised by other U.S.
federal agencies.

     Costs for the recommended measures on the U.S. side were submitted by
USIBWC, through the Department, to the Office of Management and Budget. The
Office of Management and Budget removed the request from the USIBWC budget,
stating that funding should come from DHS. That agency, in turn, has rejected the
proposal to fund the proposed USIBWC security work. The Department has not
involved itself. There the matter appears to stand at this writing.

    Clarification of the security situation is needed. All parties need to know what
agencies are responsible for the overall security of IBWC on both the U.S. and
Mexican sides. USIBWC does not have professionally qualified security officers
able to develop and administer the extraordinary security measures called for in the
current environment. A single coordinating agency for USIBWC security oversight
should be designated. If FPS is the appropriate agency, all concerned should be
formally notified, and FPS should be asked to determine and help implement an
overall security program for USIBWC. If FPS is not the indicated agency, who is?
The Department and USIBWC should make this determination. If necessary, in
the absence of another authority, DS should assume oversight of USIBWC security

     A full-time professional security officer may be needed at USIBWC. This
determination should be made as part of the clarification of security responsibi-
lities herein recommended. (As the inspection ended, the Commissioner directed


OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   27 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       the recruitment of a person for such a position, to be filled if possible within the
       near future. It is intended that the position be combined with that of occupational
       health and safety officer. OIG believes, and so informed the Commissioner, that it
       would be advisable to complete the process recommended below, before deciding
       upon a new hire.)

            Recommendation 12: The U.S. Section of the International Boundary and
       Water Commission, in coordination with the Bureau of Western Hemisphere
       Affairs and the Bureau of Diplomatic Security, should determine responsibility for
       security operations in the U.S. Section of the International Boundary and Water
       Commission and ensure coordinated oversight of all aspects of security including
       physical protection of U.S. Section International Boundary and Water Commission
       facilities. (Action: USIBWC, in coordination with WHA and DS)




       HEALTH AND SAFETY
           USIBWC is without a safety and occupational health officer, a situation that
       should not be allowed to persist. A regular program of visits and inspections was
       run in the past, which, according to project managers, was effective and
       appreciated. However, the program has been in suspense for two years, because
       the officer was called away for military reserve duty. He is not due to return to
       work with USIBWC until at least June 2005.

           In 2004, headquarters sent a memorandum to the field posts calling upon them
       to conduct a form of self-inspection based upon the findings of the last review
       conducted by the health and safety officer. This was helpful, but no substitute for a
       professional inspection of the current circumstances at each project. Some of the
       project managers report local use of safety committees, which are of limited value
       in that they do not have professional qualifications and experience.

           Fieldwork in USIBWC is often hazardous, as it is in any organization using
       heavy equipment in remote and dangerous areas. Vehicles, earth moving equip-
       ment, chain saws, heavy lifting, extreme heat, and snakes can hurt workers. Most
       workers in the field projects report encounters with illegal entrants and smugglers,
       who wield guns and threats. Rocks are thrown at workers close to the border or in
       the river. By great good fortune, no USIBWC worker, at least in recent years, has
       been seriously hurt in the field. These latter threats are as much a security as a




28 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



safety issue but can be mitigated by assigning two-person crews to work in the
more dangerous areas. This is difficult to do with the overall reduction in crews at
the projects in recent years.

    USIBWC cannot be held responsible for the loss of its health and safety officer
to military service. It should not, however, have allowed a two-year period to go
by without remedial action. A contractor could have been engaged, or a temporary
transfer of a health and safety specialist from another federal or state agency could
have been sought to fill the gap.

     Given that the health and safety officer is expected to return to USIBWC duty
fairly soon, OIG does not make a formal recommendation to fill the position. If
there is any extended further delay in filling the position, however, USIBWC should
make arrangements to supply professional health and safety expertise to the organi-
zation. An informal recommendation to this effect has been left with USIBWC.

Environmental Health

     An issue deserving of special note is the concern of USIBWC employees, past
and present, serving at the American Dam site in El Paso. The site, comprising the
dam itself and associated offices, equipment sheds, warehouses, and storage yards,
lies immediately below the abandoned plant and grounds of a metals smelting and
refining company. For over a century, this plant spewed out smoke and slag over
the area, leaving toxic waste piles looming over the USIBWC facility. In connec-
tion with the recent construction of a guardhouse on the site, it was found that
concentrations of waste metals and chemicals in the soil exceeded safe limits at
least when disturbed by digging. USIBWC employees were offered medical testing,
which did not fully clarify the situation. Elevated levels of contamination were
found in some cases, which some medical opinions had held were still within safe
limits, while personal doctors in some cases warned their patients to leave their
employment on the site. The city of El Paso evacuated a residential area next to
the site some years ago on the grounds that pollution levels were too high for
safety.

    OIG cannot assess the medical situation but finds the concerns of the
employees to be entirely rational. It is in this area that USIBWC does not appear to
have been adequately responsive. Steps should have been taken much earlier to
bring in a respected independent medical authority to review the situation and to
address employee concerns, if for no other reason than to protect USIBWC and the




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   29 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       U.S. government from potential liability. This situation has been discussed with
       USIBWC management, which has promised to take prompt action. On that basis,
       OIG is prepared to leave the matter in USIBWC hands but will recommend OIG
       follow-up to ensure that action has been taken.



       FLEXIBLE WORK SCHEDULES
             The termination of flexible work schedules by management has had a particu-
       larly counterproductive impact upon efficiency in the field.

           Project managers used to have authority to set work schedules to fit the circum-
       stances of each facility. For example: USIBWC overseers should be present during
       the same hours as those of contractors, if there is to be meaningful oversight.
       Motor pool workers at some sites used to arrive well before the work crews to
       service and prepare needed vehicles and equipment. The elimination of this
       flexibility has everyone arriving at 8:00 AM and crews left standing while their
       vehicles and equipment are prepared.

            In many cases, work sites are distant from field bases, with workers having to
       travel one to two hours simply to reach the sites. If they follow current instruc-
       tions and return at the designated time of 4:30 PM, they may have only four or five
       hours for actual work. This may require a return trip to the site to complete the
       necessary work. Previously, project managers could specify (four) 10-hour day
       schedules, when these were more efficient. This has been permitted at one or two
       sites but should be left to the discretion of project managers at all sites.

            A particularly important benefit of flexibility was adaptation to the fierce heat
       of border summer. Work could start early in the morning and end by
       mid-afternoon, avoiding at least some of the worst of the heat and increasing the
       efficiency of the workers. As noted in this report’s section on administration,
       authority for flexible work scheduling should be restored to supervisors, particularly
       to those managing work crews in the field.



       CLEAN RIVERS PROGRAM
           A major contract with the State of Texas should have been managed more
       attentively by USIBWC. The agency participates with the Texas Commission on
       Environmental Quality (TCEQ) in a program monitoring water quality along the


30 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



Rio Grande and segments of the Pecos River. The participation of the USIBWC is
essential given the international status of the river-border. In essence, Texas,
USIBWC, and other federal agencies, local and state governmental entities, and
nongovernmental organizations gather water quality data along the Texas river
border and transmit it to a central collection point in USIBWC. Here it is com-
piled, analyzed, and distributed to participating agencies. The program appears to
have been effective and to have met the expectations of the parties in the past.

    Since 1998 a contract between the two agencies has been renewed annually. It
will terminate, unless again renewed, on August 31, 2005. TCEQ obligates itself
to reimburse USIBWC for the costs of running the program. In the latest amend-
ment to the contract, in May 2004, a total budget of $617,946 was stipulated. Any
monies not expended are to be returned, not to the TCEQ, but under Texas law to
the state’s general treasury. They are thus lost to the TCEQ if not used.

    The Clean Rivers Program (CRP) office in USIBWC was established with four
staff positions: a head of the office, two technicians, and a part-time secretary.
These positions originally were temporary, given the time limitations of the
contract. With the understanding that the contract probably would be renewed
regularly, and the need to attract and employ qualified staff, the three regular
positions became permanent in USIBWC. This had the perhaps unintended effect
of permitting transfers of CRP personnel to other offices within USIBWC.

    The original head of the office did transfer to another USIBWC office, as did
his successor. For about two years, one of the two CRP technicians has acted as
head of the program, without, however, the commensurate rank or pay. The other
technician left the CRP in January 2005, and the secretary left at about the same
time. Thus, for two years the CRP has been without a permanent head, and since
January, has been run by its one remaining technician. This sole remaining CRP
member has managed to maintain the essential work of the program. TCEQ is
informally aware of the situation but has chosen not to intervene, apparently
awaiting USIBWC action. Given that the budget was predicated on fuller staffing
and activities, it may be necessary to return a substantial unused sum to the state.

    An example of the inattention of USIBWC is seen in regard to Article 5,
Section 6.2, which designates the person within USIBWC who is to be the contact
point for the contract. Written notice of reassignment of this duty is to be given to
TCEQ. The Project Representative named in the contract vacated that position
some months ago, but no formal notification has been given to TCEQ, and no
formal designation of a new Project Representative has been made.



OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   31 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



           In the course of the inspection, USIBWC undertook to correct the deficiencies
       identified. It has determined that the CRP should have three staff positions, and it
       is moving to fill them. It is consulting with TCEQ on the status of the program,
       and is expected to formally designate a new Project Representative. As corrective
       action is underway, and OIG is assured of renewed USIBWC attention to the
       program, no recommendation is necessary.




32 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED




                 RESOURCE MANAGEMENT



RESOURCES
    USIBWC has 243 full-time employees. The total budgetary resources for the
Commission for FY 2005 are $33.6 million for salaries and expenses, $9.0 million
for construction, and $6,000 for representation. Commission officials believe that
the current level of resources is adequate except for infrastructure maintenance.
The Commissioner stated that financial savings is one of his goals. While savings
were achieved through hiring freezes, staff turnover, and suspension of travel and
training for most employees, those savings were offset by the creation or reinstate-
ment of positions and the outsourcing of some functions.



POOR MANAGEMENT OVERSIGHT
     As noted earlier in this report, the commission has taken a number of
management missteps during the past year - and by many reports, in previous years
also. The presence of a senior, qualified management officer, or chief executive
officer, might have precluded many of these missteps. Over the years the duties of
such a position were shuffled among the commissioners themselves, performed by
one or more of the principal engineers, and even by an ad hoc executive board.
When the current Commissioner arrived in January 2004, many of the responsibi-
lities were being managed by a senior administrative officer. The incumbent of that
position retired in July 2004 after being told that his position was being abolished.

    At the time of the inspection, the finance, general services, and information
management sections were reporting to the foreign affairs secretary for the
commission. The secretary position was never intended to include administrative
responsibilities. The present situation should not have been allowed to develop.
To make matters worse, the incumbent does not have an accounting or financial
management background.




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   33 .

                                       UNCLASSIFIED
                                       UNCLASSIFIED



           In another anomaly, the budget and contracting offices are reporting to the
       senior budget officer, in contravention of generally accepted practices regarding
       separation of duties (as discussed under Management Controls). The human
       resources management staff reports to the director of human resources. All three
       of these supervisors report directly to the Commissioner, rather than to a manage-
       ment/executive officer, adding greatly to the Commissioner’s already impossible
       span of control and straining his ability to manage any one function effectively.

           USIBWC should have one individual devoting full attention to overall manage-
       ment of USIBWC resources, with expert knowledge of administrative practices and
       procedures. USIBWC agrees and is in the process of preparing a position
       description for a chief executive officer to be filled competitively. The 1944 Treaty
       specified five key positions for the section, but did not further address the manage-
       ment of the organization. There is no need to amend the treaty, but a sixth key
       position related to administration is long overdue.


           Recommendation 13: The U.S. Section of the International Boundary and
           Water Commission should combine all administrative activities into one office
           under a qualified administrative officer/chief executive officer position and
           fill the position through competitive procedures. (Action: USIBWC)




       HUMAN RESOURCES MANAGEMENT
       Office of Personnel Management Assessments

           OPM conducted a series of on-site evaluations of small agencies in FY 2002,
       including USIBWC, to determine how well their human resources management
       (HRM) programs promoted mission accomplishment within the merit system
       principles contained in 5 USC 2301(b).8 In February 2003, OPM issued its report
       on USIBWC, which commended the commission on its HRM program, noting that
       the OPM review team was impressed by the commitment of USIBWC’s human
       resources staff to providing the best possible service to management and
       employees.
       8
        The merit system principles include recruitment via fair and open competition; equitable treatment of all
       employees; appropriate incentives and recognition for excellent performance; high standards of integrity;
       efficient and effective use of the workforce; retention on the basis of adequate performance, with oppor-
       tunity to correct inadequate performance; provision of education and training for employees; protection
       against arbitrary action or personal favoritism; and protection against reprisal for lawful disclosure of
       information regarding mismanagement, waste of funds, abuse of authority, or danger to public health or
       safety.
34 .                OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                       UNCLASSIFIED
                                       UNCLASSIFIED



    In May 2003, in a letter approving USIBWC’s request for a personnel inter-
change agreement, OPM stated that its approval was based on “significant positive
aspects of the commission’s human resources program.” In granting its approval,
OPM relied on the February 2003 report and a review of USIBWC’s human
resources-related regulations and directives. As a further indication of its confi-
dence in the commission’s HRM program, the interchange agreement was approved
by OPM for a three-year period, vice the customary one-year period.

    In contrast to these positive findings by OPM, some of the most controversial
issues encountered during OIG’s inspection were in the area of human resources
management, including hiring, termination, and transfer of employees, performance
ratings, training and employee development, and hours of duty. On paper, there
have been no changes in the basic HRM program, policies, or directives. Under the
current Commissioner, however, adherence to the existing policies and directives
has been seriously lacking.

Excepted Service vs. Competitive Service

    Perhaps the HRM issue of greatest concern to employees throughout USIBWC
was a finding in OPM’s February 2003 report that the commission, because it was
established by various treaties and conventions, is not covered by the statutory
provisions of Title 5 of the U.S. Code. The result of this finding was that all
USIBWC employees were retroactively converted from competitive, career-condi-
tional or career status to excepted service in October 2003. OPM noted in its
report that this corrective change would have no impact on employee entitlement
to retirement and other employee benefits. Although this reassurance was passed
on to employees at the time of the conversion, it was done on an ad hoc basis
without a comprehensive or uniform explanation of the reasons for the conversion
and its impact on other employee rights and protections, including job security.
This lack of information, and subsequent actions by the Commissioner following
his appointment in January 2004, has led to widespread confusion and uncertainty
on the part of the employees and is a major contributor to the low morale that
exists at USIBWC.


   Recommendation 14: The U.S. Section of the International Boundary and
   Water Commission should update its 1999 Employee Information Guide to
   reflect the conversion of all employees to the excepted service. (Action:
   USIBWC)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   35 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED




          Recommendation 15: The U.S. Section of the International Boundary and
          Water Commission should conduct orientation sessions on the excepted
          service for all headquarters and field office employees, and request that the
          Office of Personnel Management provide a knowledgeable subject matter
          expert to assist with the sessions. (Action: USIBWC)


       Performance Management

           Another major morale issue at USIBWC was the Commissioner’s decision to
       sharply restrict the number of employees who could be rated above “Fully
       Successful” on their performance evaluations for the appraisal period that ended on
       June 30, 2004. The fact that this decision was made at the end of the rating
       period, when many employees had already been rated “Excellent” or “Outstanding”
       by their supervisors, compounded the problem. Although the written evaluations
       had not yet been distributed to these employees, periodic reviews and counseling
       sessions held throughout the rating period had assured them that their performance
       was above fully successful.

            According to the Commissioner, performance ratings at USIBWC were overly
       generous in past years and needed to be adjusted. A comparison of USIBWC’s
       rating statistics for the past few years with government-wide rating statistics does
       not support this argument. In 2002, for example, 20.1 percent of USIBWC
       employees were rated “Fully Successful.” According to OPM’s Central Personnel
       Data File for 2001, the most recent year for which statistics are available, only 16.3
       percent of employees government-wide were rated “Fully Successful.” In 2003,
       USIBWC’s rate climbed to 23.5 percent. Under the Commissioner’s new guidelines
       for 2004, the percentage of “Fully Successful” ratings at USIBWC jumped sharply
       to 88.3 percent. Although the Commissioner believes that setting such strict limits
       is a good incentive for employees to perform better, almost every employee that
       OIG interviewed during the inspection stated that the new restrictions were
       actually a disincentive.

           For the current rating cycle, the Commissioner was planning to transition
       USIBWC from a four-tier rating system to a two-tier system, with employee perfor-
       mance being rated either “Acceptable” or “Unacceptable.” While it appears to be
       within the commission’s authority to establish such an appraisal system, much of
       the government is now moving away from “Pass/Fail” systems. In an August 15,
       2003, interview with Government Executive Magazine, the head of Government
       Accountability Office urged agencies to set up performance evaluation systems


36 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



that make meaningful distinctions between top, good, mediocre, and poor perfor-
mance. Moreover, OPM advises agencies that when an agency is midway through
the rating period, as USIBWC is, and the new appraisal program has fewer summary
ratings than the old, “it may be advisable to delay implementing the new program
until the next appraisal period.”9 At the conclusion of the inspection, however, the
Commissioner announced that he was canceling the proposed move to a two-tier
system and retaining the four-tier rating system for USIBWC employees.

Training and Employee Development

    In March 2004, the Commissioner directed that all training requests for
USIBWC employees be approved by him and indicated that only mandatory (legally
required) training would be approved. According to the Commissioner, this was to
be a temporary restriction, pending the development of an agency-wide training
plan. A year later, the restriction is still in place, and there is no record that the
Commissioner formally requested a training plan. While some offices have
developed plans for their immediate staff, they have received no feedback or
approval from the Commissioner or other executive staff.

    The use of education and training to enhance organizational and individual
performance is one of the merit system principles that apply to all government
agencies (5 USC § 2301(b)(7)). Employee training and development is particularly
important in an agency such as USIBWC where a significant number (almost 40
percent) of its employees are eligible for retirement in the next five years and where
many of the jobs require specialized skills. The current restriction on training is
affecting employees’ ability to maintain the knowledge and skills required to do
their jobs, and managers’ ability to develop employees to take on higher levels of
responsibility or move into other areas of specialization.


    Recommendation 16: The U.S. Section of the International Boundary and
    Water Commission should formally request training plans from all divisions
    and field offices, promptly review and approve the plans, and return authority
    to approve training to supervisors and managers. (Action: USIBWC)




“Appraisal System/Program Transitions” from OPM’s web site.
9




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   37 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       Hours of Duty/Alternative Work Schedules

           Effective September 5, 2004, the Commissioner cancelled USIBWC’s policy
       regarding alternative work schedules and required all employees in headquarters
       and most field offices to adhere to an 8:00 to 5:00 schedule. This change was
       presented as a temporary, three-month measure to better evaluate the resources of
       the agency. At the end of the three-month period, employees were informed that
       the new hours would remain in effect indefinitely.

           Although the Commissioner has the authority to disallow alternative work
       schedules, the use of such schedules is encouraged by OPM as an important
       employee recruitment, retention, and morale tool. Except for a limited number of
       positions, there is no advantage to USIBWC in adhering to a rigid schedule. In fact,
       the lack of flexibility in setting alternative hours is counterproductive in some
       cases, particularly in the field offices (see Policy and Program Implementation).
       The loss of flexibility has been a major morale problem for commission employees,
       many of whom have scrambled to make alternative arrangements for childcare,
       medical appointments, and other personal and family needs.

            On March 2, 2005, as the inspection was ending, the Commissioner issued a
       notice authorizing supervisors to allow flexi-tour work schedules in their work units
       - a laudable step in the right direction. The Commissioner should consider allowing
       other alternative work schedules, such as compressed workweeks, for employees
       whose duties do not preclude such arrangements.



       TROUBLING PERSONNEL ACTIONS
           As discussed above, OPM indicated during a 2002 review of the commission’s
       HRM program that USIBWC is not covered by certain statutory provisions of Title
       5 of the U.S. Code. While excepted service status is intended to grant agencies
       some latitude in conducting their HRM programs, it does not exempt them from
       adhering to the merit system principles in 5 USC § 2301, nor does it exempt them
       from following their own established HRM policies and procedures.

           In a 1998 study on “HRM Policies and Practices in Title-5 Exempt Agencies,”
       which reviewed HRM practices in 18 exempt agencies (including the Department
       of State), OPM found few differences from nonexempt agencies in the exempt
       agencies’ recruitment, hiring, and promotion practices. Most exempt agencies have
       developed HRM policies and practices that mirror Title 5 requirements. This is


38 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



also true at USIBWC, based on a review of its HRM-related policies and directives.
In fact, this adherence to merit system principles and Title 5 guidelines was a major
factor in the commission’s successful bid to establish a personnel interchange
agreement with OPM in 2003.10

    A review of personnel actions taken during the past year, however, indicate
that USIBWC is failing to adhere in many cases to its own policies or to good
management practices regarding recruitment, hiring, and promotions. Some ex-
amples are provided below.

Consultant Appointments

    On March 21, 2004, the Commissioner hired a part-time consultant for a period
not to exceed one year at an annual salary rate of $113, 674 (equivalent to a
GS-15, step 10, the highest rate allowed for consultant appointments). The SF-52
personnel action states that this was a superior qualifications appointment made
under regulation 531.203(b). Under this regulation, an agency must document the
superior qualifications of the appointee and the factors used in establishing the pay
rate. The file does not contain any of this supporting documentation. The
consultant’s application states that his highest level of completed education is a
high school degree, although he did take some college-level courses. He was
previously employed as a consultant, organizing and monitoring meetings between
business and local government entities, earning an annual salary of $26,000. The
consultant’s appointment was terminated on September 4, 2004, with a total of
480 hours billed to the commission. There is no position description in the file to
indicate what his duties were.

    On May 17, 2004, the Commissioner hired another consultant as a full-time
employee, with an annual salary of $113, 674 and full government benefits
(including eight hours of annual leave per pay period and enrollment in the federal
Employee Health Benefits program). Prior to this appointment, the consultant
worked with the Commissioner at the Lower Valley Water District at an annual
salary rate of $43,000. A position description for this position was not developed
until after November 2004, six months after the incumbent’s appointment.



10
   The personnel interchange agreement allows USIBWC employees to move between the Commission’s
excepted service positions and other agencies’ competitive service positions on a noncompetitive basis.
Before approving the agreement for the commission, OPM first ensured that its system was comparable
to competitive service agencies and that the agreement would be in the interest of good administration
and consistent with the intent of the civil service and other applicable laws.


OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005              39 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       Although the consultant has an engineering degree from a Mexican university, he is
       not licensed as an engineer in the United States. As the inspection was ending, the
       Commissioner informed OIG that he was terminating this consultant’s appoint-
       ment effective April 1, 2005.

            A third consultant appointment, a part-time, one-year appointment, was made
       on June 4, 2004, again at an annual salary rate of $113, 674. As in the cases above,
       there is no documentation in the file of this individual’s superior qualifications,
       justification for the high salary, the need for his services, or a position description.
       Prior to his appointment at USIBWC, the consultant was employed by the U.S.
       Postal Service at an annual rate of $31,000, supplemented by a teaching salary of
       $3,000 per course.

       New Hires

           On January 26, 2004, shortly after he arrived at USIBWC, the Commissioner
       announced a freeze on hiring actions until further notice, while retaining the
       authority to grant exceptions to the freeze as necessary. At the time of the
       inspection, the freeze was still in place.

            The Commissioner made several exceptions to the freeze to fill some urgent
       field office positions and positions on his executive staff. While it appears that it
       was within his authority to make these exceptions, the decision to add to the
       executive staff while other positions went unfilled was viewed as a double standard
       by most of the rank-and-file employees of the commission. In addition, the
       Official Personnel Files indicate that some of the selections for the executive staff
       positions were not done in accordance with established USIBWC policies and
       procedures. For example, there is no position description for the Schedule C
       Special Assistant, who was hired on July 1, 2004, at a GG-13, step 10, salary level
       ($90,602). According to documents in the file, as of June 30, 2004 this employee
       was being paid an annual salary of $41,200 by the U.S. House of Representatives.

           Another employee was hired on July 19, 2004, as a GG-11 Support Services
       Supervisor at an annual salary rate of $48,947. Although this position was initially
       advertised as a competitive job opportunity, competitive procedures were not
       followed, and the employee was selected by the Commissioner as a noncompetitive
       hire. The employee was previously employed at the Lower Valley Water District at
       an annual salary of $36,000.




40 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



    At the conclusion of the inspection, the Commissioner was planning to fill
approximately 24 vacant and new positions, ranging in grade from GG-3 to senior
executive service equivalent. As noted elsewhere in this report, understaffing in
some areas of USIBWC is affecting operations. However, the commission should
prepare a comprehensive hiring plan before creating new positions or filling long-
vacant positions to ensure effective and efficient management of its operations.


   Recommendation 17: The U.S. Section of the International Boundary and
   Water Commission should prepare a hiring plan before creating new positions
   or filling long-vacant positions. (Action: USIBWC)


Promotions

    On October 6, 2002, USIBWC hired a Schedule A attorney-adviser, under
competitive procedures, at a GG-11 salary level with promotion potential to
GG-13. After meeting the one-year time-in-grade, the employee was promoted to
GG-12. Less than seven months later, on June 13, 2004, the Commissioner
promoted the employee to GG-13. Four months after that, on October 17, 2004,
the employee was promoted again by the Commissioner to GG-14. There is no
documentation in the Official Personnel Files justifying these last two promotions.

    On July 11, 2004, USIBWC hired a second Schedule A attorney-adviser at the
GG-13 level. Six weeks later, on August 22, 2004, the Commissioner promoted
the employee to GG-14. Again, there is no documentation to indicate the reasons
for this rapid promotion.



LABOR - MANAGEMENT RELATIONS
     The American Federation of Government Employees is the recognized
bargaining agent for the employees of USIBWC. The agreement between USIBWC
and the federation dates from October 1990. Article IV, Section 1, states that the
“...Employer is obligated to meet and confer ... (on) such matters as safety, training,
labor management cooperation, employee services, methods of adjusting
grievances and appeals, granting of leave ... and hours of work.” Managers and
union representatives are aware of the agreement and its requirements, although it
is not clear that effective consultations have taken place. Some employees told




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   41 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



       OIG that they feared management retaliation if they became involved in union
       activism. Fear of such retaliation is not new at USIBWC and may help explain the
       small number of union members.



       EQUAL EMPLOYMENT OPPORTUNITY
           USIBWC has an experienced Equal Employment Opportunity (EEO) specialist
       and a cadre of trained EEO counselors. The Commissioner issued an updated
       directive on the EEO program on January 14, 2005, including a policy statement
       reaffirming the agency’s commitment to Title VII of the Civil Rights Act of 1964,
       as amended. According to her position description, the EEO specialist reports
       directly to the Commissioner. However, the Commissioner has not met with the
       incumbent to discuss the EEO program or his expectations concerning manage-
       ment of the program since his appointment in January 2004. In addition, the
       Commissioner’s agency-wide restriction on spending has limited the activities of
       the EEO office, such as bringing in speakers during Black History Month to
       address all interested employees. Previous commissioners met with the EEO
       specialist on a quarterly basis to keep informed on developments and discuss
       proposed EEO-related activities. The inspectors made an informal recom-
       mendation that the present Commissioner meet with the EEO specialist
       periodically, regardless of who is the designated supervisor.



       ADMINISTRATIVE OPERATIONS
           Administrative operations at USIBWC are currently in flux due to sweeping
       changes the new Commissioner has made, including reorganizing the USIBWC and
       concentrating oversight of most administrative functions in his front office staff.
       There has also been staff turnover with the elimination of middle managers, many
       of whom were long-term commission employees. While front office
       micromanagement has hindered operations, the administrative staff continues to
       serve the needs of the agency. The administrative staff is doing its best to be
       responsible to its front office while complying with laws and regulations.
       Customers are generally satisfied with the administrative support they receive,
       although a somewhat unfair perception exists that the administrative section serves
       only USIBWC management. Notwithstanding its inability to conduct a thorough
       review of all administrative operations, OIG found significant weaknesses in
       administrative operations needing attention, as described below.


42 .             OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED



PROCUREMENT AND CONTRACTING
    The procurement and contracting office staff - well trained and knowledgeable
about federal contracting policy - generally performs well. Unfortunately, OIG’s
review of contracts and procurement operations found significant weaknesses with
the contract awards and monitoring processes, including two that are particularly
troubling.

   In April 2004, USIBWC awarded a sole source contract for legislative
consulting, with a total dollar amount of over $150,000. The justification for sole
sourcing cites an “urgent and compelling” need - a weak justification because the
Congress has always been available to past Commissioners who have sought
appointments.

    On another recent contract award, an indefinite-delivery, indefinite-quantity
contract for architectural and engineering services, with a task order dollar limit of
$5 million, the Commissioner overturned the decision of the proposal evaluation
board that reviewed and ranked the competitive bids, selecting the company the
board ranked second. The justification letter signed by the Commissioner to select
the second-ranked bidder is not persuasive in contrast to the recommendations of
the board. Moreover, USIBWC hired as an engineer for one of the two principal
engineer positions an individual who worked for the company selected by the
Commissioner, two days after the winning contractor was informed of its selection.
An audit may be required to determine whether USIBWC adhered to federal
contracting laws.

    A review of several of the monthly reports for the legislative consulting
contract raised questions as to whether the contractor actually met the terms of the
contract. The reports include lists of congressional hearings and sessions that are
available on the Internet; copies of articles from newspapers and other publica-
tions; and other material from the Internet. It would be more cost effective to have
someone on the staff performing this function. In addition to a GG-15 foreign
affairs officer at the Department of State who maintains contacts with congres-
sional offices, there is a GG-13 public affairs specialist at USIBWC headquarters,
and the Commissioner has a GG-13 special assistant with extensive legislative
experience. USIBWC insists, however, that it is satisfied with the contractor’s
work, and is in the solicitation stage for a new legislative consulting contract, this
time with full and open competition.




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   43 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



           There are other contract monitoring issues concerning work being performed at
       two field offices. Because the Commissioner restricted USIBWC employees from
       working flexible hours and overtime, the designated construction inspectors are
       unable to inspect the contractors’ work outside of the designated USIBWC official
       duty hours when much of the work is taking place. At least one of the contracts
       stipulates that the contractor will be charged for the inspector’s overtime, which
       makes the restriction on overtime even more questionable. During the inspection
       this situation had not been resolved. An audit of USIBWC’s contracting proce-
       dures to include these specific contracts is warranted due to the number and nature
       of the concerns.

           Another procurement weakness at USIBWC is the current policy on purchases,
       instituted by the Commissioner, wherein the Commissioner has final approval of all
       contracts over $5,000 and purchases over $1,000. He also limited credit card
       purchases to $2,500 per month at the field offices. These actions not only hamper
       employees in performing their day-to-day work but also reflect a lack of trust in the
       judgment of experienced employees. The Commissioner said he implemented the
       policy upon his arrival because he believed there was abuse. However, there are no
       indications that abuse is or was taking place, and limiting credit card purchases to
       $2,500 per month and scrutinizing all purchase requests over $1,000 are not com-
       patible with the concept of simplified acquisitions as encouraged by procurement
       laws.

           The new procedures have slowed down the procurement process, hindered
       operations, and reduced productivity and efficiencies in USIBWC operations.
       Several of the field offices reported running out of fuel due to restricted spending
       limits, seriously hampering their ability to carry out their work. At one location,
       employees could not perform work in the field for 10 days due to the lack of fuel.
       At other locations employees were siphoning fuel from one vehicle to another to
       get the job done. These actions make USIBWC vulnerable to unauthorized com-
       mitments and are a counterproductive way of doing business.


          Recommendation 18: The U.S. Section of the International Boundary and
          Water Commission should develop and implement procedures to follow
          prescribed federal procurement practices for simplified acquisitions. (Action:
          USIBWC)




44 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



FINANCIAL MANAGEMENT
    The experienced budget and finance staff perform their duties adequately,
although time pressures permitted only a limited review of transactions and
vouchers. Finance and accounting operations for USIBWC are overseen by the
commission’s foreign affairs secretary. The position needs full-time attention and
specialized financial expertise. Accountability could be an issue as a result of
combining the budget office and procurement section. While specific problems
directly related to the combination of these sections were not found, it is an
inappropriate separation of duties, and the commission should restructure the
administrative office to combine all financial operations under one qualified
manager while segregating the budget formulation and execution functions. Both
of these issues are discussed in the management controls section of this report.

Travel

    A review of travel vouchers submitted by the Commissioner for FYs 2004 and
2005 showed several instances where he received actual expenses to stay at hotels
where the government rate was not available. On trips to Washington, DC in
August and September, the Commissioner stayed at the Willard Hotel at a nightly
rate of $285 and the Marriott at a nightly rate of $279, even though the govern-
ment per diem rate for lodging was $150 for Washington, DC. Although the
Commissioner certified that no government rate was available, hotel availability in
Washington, DC in those months is normally plentiful. The Commissioner should
have stayed in hotels at the government per diem rate or paid the difference
out-of-pocket.


   Recommendation 19: The U.S. Section of the International Boundary and
   Water Commission should audit the Commissioner’s travel vouchers, verifying
   the nonavailability of lodging at government rates in cases where actual
   expenses are claimed, and bill the Commissioner for any overcharges, if
   warranted. (Action: USIBWC)



   Recommendation 20: The U.S. Section of the International Boundary and
   Water Commission should review its travel policy to ensure compliance with
   federal regulations and distribute it to all employees. (Action: USIBWC)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   45 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



       Representation

           For the past two fiscal years, USIBWC has received a representation allotment
       of $6,000. At the time of the inspection, only a small percentage of the 2005
       representation allotment had been used. However, in FY 2004, the majority of the
       allotment, almost $5,000, was used for the Commissioner’s swearing-in ceremony.
       There were 116 guests on the guest list, including about 43 USIBWC employees,
       and the expense amounted to about 85 percent of the commission’s representation
       allotment. While a reception to meet a new Commissioner is justifiable, the cost
       was excessive for one event. More seriously, funds in the amount of $1,276.19
       from the salaries and expenses allotment were used to pay for the airfare and
       lodging of two out-of-town guests to attend the swearing in ceremony. This does
       not comply with 31 USC § 1345 and is an improper use of government funds. At
       the end of the inspection, the Commissioner expressed surprise that salaries and
       expenses funds had been used inappropriately and promised prompt reimburse-
       ment. Before issuance of this report, the Commissioner refunded the full amount in
       question to USIBWC.




46 .             OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED




                 MANAGEMENT CONTROLS

    USIBWC appears to meet the basic requirements of a management controls
program. In a memorandum dated July 16, 2004, the Commissioner provided the
required management controls assurance statement to the Secretary of State for the
period ending June 30, 2004. USIBWC also conducted a risk assessment and
developed a management controls plan for the year. In addition, a review of
position descriptions for employees with internal controls responsibilities specified
those responsibilities. USIBWC’s prescribed management controls program is laid
out fully in its accountability and controls directive (dated May 8, 2002). However,
it does not appear that USIBWC is adhering to that program. OIG found several
management control weaknesses as described below. OIG also made informal
recommendations addressing other management controls issues.



INTERNAL AUDITOR
    While USIBWC has a directive in place for internal audits and an internal
auditor on the staff, the internal auditor reports to the legal adviser rather than to
the Commissioner. In addition, the internal auditor serves as the internal controls
administrator for USIBWC, which conflicts with his internal auditor duties and
does not comply with the USIBWC accountability and controls directive. Because
the internal auditor has additional responsibilities, including Privacy Act officer,
Freedom of Information Act officer, tort claims administrator, and EEO
counselor, he has not had the time required to carry out his internal audit duties as
needed. For example, the commission has not fully addressed the recommenda-
tions of the 2003 independent financial audit even though the 2004 audit is in
process.


   Recommendation 21: The U.S. Section of the International Boundary and
   Water Commission should designate a qualified employee other than the
   internal auditor to serve as the internal controls administrator for the commis-
   sion. (Action: USIBWC)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   47 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       AUDIT FOLLOW-UP
            OIG reviewed the status of the two major findings in the FY 2003 independent
       audit report. The first finding was that USIBWC did not maintain an accurate
       general ledger in accordance with federal accounting and systems requirements.
       USIBWC believes that this issue has been resolved and provided OIG support for
       its position. The second finding was that USIBWC was not in compliance with the
       Clean Water Act in operation of wastewater treatment plants. USIBWC provided
       OIG with a draft document to show that some effort has been made regarding the
       second audit finding. As part of the 2004 financial statement audit, which was not
       complete at the time this inspection report was drafted, the independent auditor
       will assess whether both of these findings have been closed.



       ADMINISTRATIVE OPERATIONS
            As discussed in the Resource Management section of this report, the absence
       of a chief executive officer for USIBWC has resulted in weak oversight of adminis-
       trative operations, with the foreign affairs secretary overseeing some administrative
       functions on a part-time basis, and another officer supervising two functions -
       budget and contracting - that should be under separate oversight. Although the
       USIBWC legal office reviewed this latter action prior to its implementation, and the
       supervisor has exercised due care to ensure that she did not serve as the designated
       certifying officer or in a position to authorize purchases, the present setup is not in
       keeping with government guidelines on separation of duties. In addition, this
       supervisor serves as contracting officer’s representative on one contract, apparently
       because at the time of the contract award there was no one else in USIBWC
       qualified to monitor the contract.


          Recommendation 22: The U.S. Section of the International Boundary and
          Water Commission should separate responsibility for its budgeting and
          contracting functions. (Action: USIBWC)




       GENERAL SERVICES AND INFORMATION MANAGEMENT
          Time did not permit a full review of USIBWC’s general services or information
       management operations. However, weaknesses with inventory controls have been


48 .              OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED



identified by the independent auditor, and other sources, over the past several
years. USIBWC is working to improve its inventory control process, and the
information management staff is working on a new automated inventory system
that will include field office inventory and processes such as fuel accounting and
maintenance of vehicles. The computer excess program was suspended by the
Commissioner, and OIG informally recommended that USIBWC update its
standard operating procedures for property management, including disposal proce-
dures.

     In September 2004, a series of anonymous letters composed on USIBWC
letterhead were sent to the Department, other public officials, and the media
containing allegations against the Commissioner. After the letter was made public,
the Commissioner ordered all except his personal staff to stop using USIBWC
letterhead for any purpose, and all existing stock was turned in to his office. The
letterhead was revised and since that time its use has been closely controlled. This
is unnecessary, inefficient, and compounds the current atmosphere of mistrust.
OIG made an informal recommendation that adequate supplies of letterhead be
distributed to all offices for official use.




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   49 .

                                       UNCLASSIFIED
                         UNCLASSIFIED




50 .   OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                         UNCLASSIFIED
                                       UNCLASSIFIED




             FORMAL RECOMMENDATIONS

Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordination
  with the Bureau of Human Resources and the Office of the Legal Adviser,
  should develop and implement a plan to ensure effective oversight of the
  personnel structure of the U.S. Section of the International Boundary and Water
  Commission and its adherence to applicable laws and regulations governing
  personnel administration. (Action: WHA, in coordination with DGHR and L)

Recommendation 2: The Bureau of Western Hemisphere Affairs, in coordination
  with the Bureau of Legislative Affairs, should request that the position of
  Commissioner, U.S. Section of the International Boundary and Water
  Commission, be made subject to the advice and consent of the Senate. (Action:
  WHA, in coordination with H)

Recommendation 3: The Bureau of Western Hemisphere Affairs should incorpo-
  rate the role of the U.S. Section of the International Boundary and Water
  Commission into the Bureau Performance Plan. (Action: WHA)

Recommendation 4: The U.S. Section of the International Boundary and Water
  Commission, in coordination with the Bureau of Western Hemisphere Affairs,
  should define qualification and performance standards for appointments to the
  position of secretary/foreign affairs officer in the commission. (Action:
  USIBWC, in coordination with WHA)

Recommendation 5: The Bureau of Western Hemisphere Affairs, in coordination
  with the Foreign Service Institute and the U.S. Section of the International
  Boundary and Water Commission, should arrange for the secretary/foreign
  affairs officer of the U.S. Section of the International Boundary and Water Com-
  mission to attend a basic Foreign Service officer training course or other appro-
  priate course that would provide familiarization with the Department and with
  diplomatic practice. (Action: WHA, in coordination with FSI and USIBWC)

Recommendation 6: The U.S. Section of the International Boundary and Water
  Commission should reestablish the position of language specialist in the foreign
  affairs office. (Action: USIBWC)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   51 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



       Recommendation 7: The Bureau of Western Hemisphere Affairs, in coordination
         with the U.S. Section of the International Boundary and Water Commission,
         should develop standard operating procedures governing the sharing of foreign
         affairs material, including communications from the Mexican Section and
         records of meetings and consultations with the Mexican Section. (WHA, in
         coordination with USIBWC)

       Recommendation 8: The Bureau of Western Hemisphere Affairs, in coordination
         with the Bureau of Human Resources, should designate the positions of
         Commissioner and secretary/foreign affairs officer in the U.S. Section of the
         International Boundary and Water Commission as requiring SECRET national
         security clearances, and arrange such clearances for the current incumbents.
         (Action: WHA, in coordination with DGHR)

       Recommendation 9: The U.S. Section of the International Boundary and Water
         Commission should restore normal, historic authorities to its supervisors and
         project managers to permit them to carry out their assigned missions. (Action:
         USIBWC)

       Recommendation 10: The U.S. Section of the International Boundary and Water
         Commission should institute a program of regular visits by the Commissioner
         and headquarters staff to its field projects and reestablish regular project
         manager meetings with the Commissioner. (Action: USIBWC)

       Recommendation 11: The U.S. Section of the International Boundary and Water
         Commission, in coordination with the Bureau of Western Hemisphere Affairs
         and the Bureau of Diplomatic Security, should seek a Memorandum of Under-
         standing with the U.S. Border Patrol defining the security support that the border
         patrol is able and willing to provide to commission field facilities. (Action:
         USIBWC, in coordination with WHA and DS)

       Recommendation 12: The U.S. Section of the International Boundary and Water
         Commission, in coordination with the Bureau of Western Hemisphere Affairs
         and the Bureau of Diplomatic Security, should determine responsibility for
         security operations in the U.S. Section of the International Boundary and Water
         Commission and ensure coordinated oversight of all aspects of security
         including physical protection of U.S. Section International Boundary and Water
         Commission facilities. (Action: USIBWC, in coordination with WHA and DS)

       Recommendation 13: The U.S. Section of the International Boundary and Water
         Commission should combine all administrative activities into one office under a
         qualified administrative officer/chief executive officer position and fill the
         position through competitive procedures. (Action: USIBWC)

52 .             OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED



Recommendation 14: The U.S. Section of the International Boundary and Water
  Commission should update its 1999 Employee Information Guide to reflect the
  conversion of all employees to the excepted service. (Action: USIBWC)

Recommendation 15: The U.S. Section of the International Boundary and Water
  Commission should conduct orientation sessions on the excepted service for all
  headquarters and field office employees, and request that the Office of
  Personnel Management provide a knowledgeable subject matter expert to assist
  with the sessions. (Action: USIBWC)

Recommendation 16: The U.S. Section of the International Boundary and Water
  Commission should formally request training plans from all divisions and field
  offices, promptly review and approve the plans, and return authority to approve
  training to supervisors and managers. (Action: USIBWC)

Recommendation 17: The U.S. Section of the International Boundary and Water
  Commission should prepare a hiring plan before creating new positions or filling
  long-vacant positions. (Action: USIBWC)

Recommendation 18: The U.S. Section of the International Boundary and Water
  Commission should develop and implement procedures to follow prescribed
  federal procurement practices for simplified acquisitions. (Action: USIBWC)

Recommendation 19: The U.S. Section of the International Boundary and Water
  Commission should audit the Commissioner’s travel vouchers, verifying the
  nonavailability of lodging at government rates in cases where actual expenses
  are claimed, and bill the Commissioner for any overcharges, if warranted.
  (Action: USIBWC)

Recommendation 20: The U.S. Section of the International Boundary and Water
  Commission should review its travel policy to ensure compliance with federal
  regulations and distribute it to all employees. (Action: USIBWC)

Recommendation 21: The U.S. Section of the International Boundary and Water
  Commission should designate a qualified employee other than the internal
  auditor to serve as the internal controls administrator for the commission.
  (Action: USIBWC)

Recommendation 22: The U.S. Section of the International Boundary and Water
  Commission should separate responsibility for its budgeting and contracting
  functions. (Action: USIBWC)




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   53 .

                                       UNCLASSIFIED
                         UNCLASSIFIED




54 .   OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                         UNCLASSIFIED
                                       UNCLASSIFIED




          INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Infor-
mal recommendations will not be subject to the OIG compliance process. How-
ever, any subsequent OIG inspection or on-site compliance review will assess the
mission’s progress in implementing the informal recommendations.

Health and Safety

USIBWC’s professional occupational health and safety officer, absent on military
reserve duty for almost two years, is not scheduled to return from duty until June
2005. Meanwhile there is no qualified substitute available in USIBWC.

Informal Recommendation 1: The U.S. Section of the International Boundary
and Water Commission should hire a professionally qualified occupational health
and safety officer on a temporary basis if the absence of the regular incumbent of
that position extends beyond June 2005.

Procurement and Contracting

USIBWC currently does not have a designated head of contracting, which does not
comply with USIBWC’s procurement and contracting directive.

Informal Recommendation 2: The U.S. Section of the International Boundary
and Water Commission should designate a qualified official as head of contracting
in accordance with the commission’s procurement and contracting directive.

Certifying Officer

While USIBWC’s finance office employees sign documents in the finance office as
certifying officers, some of these employees have not been officially designated.
Treasury and Government Accountability Office guidelines require that certifying
officers be officially designated.




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   55 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



       Informal Recommendation 3: The U.S. Section of the International Boundary
       and Water Commission should designate authorized certifying officers in accor-
       dance with Treasury and Government Accountability Office guidelines. Their
       selection should also be in accordance with Treasury and Government Accounta-
       bility Office directives concerning knowledge, experience, and qualifications.

       Financial System

       USIBWC’s financial system is not user friendly in that the system lacks a quick and
       efficient query capability for budget data.

       Informal Recommendation 4: The U.S. Section of the International Boundary
       and Water Commission should revise the current financial system to improve query
       capability to make the system more efficient and user friendly.

       Property Management

       USIBWC’s property management guidelines are outdated. Also, the computer
       excess program has been suspended.

       Informal Recommendation 5: The U.S. Section of the International Boundary
       and Water Commission should review and update as necessary its standard
       operating procedures for property management, including disposal procedures, in
       accordance with federal property regulations.

       Equal Employment Opportunity Office

       The Commissioner has not met with the EEO specialist to discuss the EEO
       program or his expectations concerning management of the program since his
       appointment in January 2004. Previous commissioners met with the EEO
       specialist on a quarterly basis to keep informed on developments and discuss
       proposed EEO-related activities.

       Informal Recommendation 6: The Commissioner should meet with the Equal
       Employment Opportunity Specialist periodically to discuss the Equal Employment
       Opportunity program and any issues that need to be resolved.




56 .             OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED



U.S. Section of the International Boundary and
Water Letterhead

In September 2004, the Commissioner directed that all USIBWC letterhead be
tightly and centrally controlled, and offices were required to turn in their existing
stock.

Informal Recommendation 7: The U.S. Section of the International Boundary
and Water Commission should distribute official letterhead to all offices for use on
official commission business.




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   57 .

                                       UNCLASSIFIED
                         UNCLASSIFIED




58 .   OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                         UNCLASSIFIED
                                       UNCLASSIFIED




                       PRINCIPAL OFFICIALS

                                                                                       Entered on
                                                        Name                         Duty at IBWC


Commissioner                                            Arturo Q. Duran                        01/04


Legal Advisers                                          Susan Daniel                           10/02
                                                        Richard Porras                         05/04
Supervisory General Engineer                            Bernardino Olague                      08/04
Supervisory General Engineer                            Carlos Marin                           08/79
Secretary                                               Carlos Rivera                          07/04
Director of Human Resources                             Robert Komp                            09/94
Budget and Acquisitions                                 Diana Forti                            04/02
Public Affairs Officer                                  Sally Spener                           06/01


Department of State Liaison                             Mary Brandt                            01/00


Field Offices:
Mercedes, TX                                            Enrique Reyes                          03/85
Falcon Dam, TX                                          Silverio Garza, Jr.                    08/87
Amistad Dam, TX                                         Kenneth Breiten                        01/86
American Dam, TX                                        Antonio Solo                           11/90
San Ysidro, CA                                          Dion McMicheaux                        09/87
Nogales, AZ                                             John Light                             10/98
Yuma, AZ                                                Alton Goff                             04/70




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005           59 .

                                       UNCLASSIFIED
                         UNCLASSIFIED




60 .   OIG Report No. ISP-I-05-26, US Section of the Int’l Boundary and Water Commission, March 2005


                         UNCLASSIFIED
                                       UNCLASSIFIED




                              ABBREVIATIONS

                    CRP        Clean Rivers Program
           Department          Department of State
                 DGHR          Bureau of Human Resources
                    DHS        Department of Homeland Security
                      DS       Bureau of Diplomatic Security
                   EEO         Equal Employment Opportunity
                     FPS       Federal Protective Service
                   HRM         Human resource management
                  IBWC         International Boundary and Water Commission
                    OIG        Office of Inspector General
                   OPM         Office of Personnel Management
                 TCEQ          Texas Commission on Environmental Quality
              USIBWC           U.S. Section, International Boundary and Water
                               Commission
          WHA/MEX              Office of Mexican Affairs, Bureau of Western
                               Hemisphere Affairs




OIG Report No. ISP-I-05-26,US Section of the Int’l Boundary and Water Commission, March 2005   61 .

                                       UNCLASSIFIED
                            TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Management Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Policy Successes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     Management Missteps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     Ethics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
     Oversight Required . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
     Bureau Performance Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
     Foreign Affairs Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    19
      Absentee Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                23
      Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   24
      Health and Safety . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          26
      Flexible Work Schedules . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              28
      Clean Rivers Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             28
RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    31
     Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     31
     Poor Management Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     31
     Human Resources Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        32
     Troubling Personnel Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   36
     Labor - Management Relations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      39
     Equal Employment Opportunity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        40
     Administrative Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 40
     Procurement and Contracting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     41
     Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                43
MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              45
    Internal Auditor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   45
    Audit Follow-Up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      46
    Administrative Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            46
    General Services and Information Management . . . . . . . . . . . . . . . . . . . .                              46
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
